USDA
                     U.S. Department of Agriculture

                        Office of Inspector General
                                    Western Region




             Audit Report
       Food and Nutrition Service's
Continued Monitoring of EBT Operations -
           State of California
      Department of Social Services




                           Report No. 27099-35-SF
                                   December 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
USDA                             OFFICE OF INSPECTOR GENERAL
                                        Western Region - Audit
                                    75 Hawthorne Street, Suite 200
                                   San Francisco, California 94105
                                TEL: 415-744-2851 FAX: 415-744-2871




REPLY TO
ATTN OF: 27099-35-SF

TO:          Allen Ng
             Regional Administrator
             Western Region
             Food and Nutrition Service

ATTN:        Cynthia Turner
             Director of Financial Management

FROM:        Frederick San Buenaventura Is/
             Regional Inspector General
                for Audit

SUBJECT: Food and Nutrition Service's Continued Monitoring of EBT Operations -
         State of California Department of Social Services


As part of a nationwide review, the Office of Inspector General (OIG) audited the
Electronic Benefits Transfer (EBT) operations through which the California Department
of Social Services (CDSS) helps people in need buy food. Our overall objective was to
evaluate CDSS' EBT controls, oversight, and the department's compliance with relevant
laws and regulations. We did not identify any significant conditions in these areas.

However, we did find a minor potential vulnerability in two county offices that assigned
EBT card custodians (who store and secure the cards) backup authority as card operators
(who activate cards) to issue cards if operators were absent. We determined that the
offices should keep these duties separate to prevent one person from being able to both
access and activate EBT cards. Officials at both county offices concurred with our
analysis and agreed to segregate EBT custodians' card storage responsibility from
operators' activation authority.

BACKGROUND

In 1977, Congress passed the Food Stamp Act which established a permanent program to
assist low-income households by increasing their ability to buy food. The program is now
Allen Ng

titled the Supplemental Nutrition Assistance Program (SNAP).' The Food and Nutrition
Service (FNS) administers SNAP through Federal-State partnerships. The Federal
Government pays for the food benefits itself but shares SNAP'S administration costs with
States. Qualifying participants receive SNAP benefits through EBT cards, which replaced
paper coupons (i.e., food stamps) in 2005 and work like debit cards for buying food.

CDSS oversees SNAP in California where 58 county welfare departments deliver EBT
cards by either mailing them or holding them for pickup. Once activated, the Government
adds benefits to eligible cards once a month. In total, CDSS oversaw over $2.6 billion
worth of benefits for 827,258 households in fiscal year 2007.

OBJECTIVE

Our overall objective was to evaluate the adequacy of established controls and the
effectiveness of EBT oversight efforts in California. Specifically, we (1) assessed the
operation of EBT system controls established for the EBT processors and CDSS
activities, (2) evaluated the adequacy of CDSS' administration and oversight of EBT
operations in California, and (3) reviewed CDSS' and county welfare offices' compliance
with applicable laws and regulations.

SCOPE

We performed audit work at FNS' Western regional office (WRO), FNS' Los Angeles
field office, CDSS' State office, California Office of Systems Integration2, and two
California counties, Alameda and Los Angeles (see exhibit A). We judgmentally selected
Los Angeles and Alameda because both were within the top ten counties in California
that received SNAP benefits in March 2008. Los Angeles recipients received the highest
SNAP benefits for the month with over $70 million while Alameda recipients received
$8.5 million. In Los Angeles, we selected 2 of 31 district offices (Metro Special and
South Family) with the largest issuance of SNAP benefits from January 2008 to March
2008. We selected the most recent available (monthly or quarterly) records from June
2007 through May 2008.

We reviewed the following areas for compliance with applicable laws and regulations,
and with the State's EBT processor's contract:

           EBT system security
           Integrity of EBT benefits delivered to recipients
           FNS WRO oversight over CDSS
           CDSS management of its EBT system

We performed our fieldwork from February 2008 through August 2008.




' Public Law 95-1 13.
 Its mission is to procure, manage and deliver technology systems that support the delivery of health and human services to
Californians.
Allen Ng                                                                                3

METHODOLOGY

To accomplish our objectives, we performed the following procedures:

   * We reviewed applicable laws, regulations, policies, guidance, active State
       waivers, and FNS regional office's management evaluations related to the EBT
       system.

       We interviewed ltey staff at FNS' regional and field offices, CDSS' State office,
       county offices, district offices, and EBT processor to determine their oversight
       responsibilities and controls used to monitor the EBT system in California.

   * At FNS' Los Angeles field office, we reviewed retailer payment data from the
       EBT processor for evidence of unusual activities.
       At CDSS' State office we assessed internal controls to determine if they were
       adequate and whether or not CDSS' policies and procedures complied with
       applicable laws and regulations. Specifically, we reviewed waivers, contracts,
       manuals, policies and instructions, and fee schedules. We also examined CDSS'
       EBT system records to assess the procedures established for authorizing access to
       the EBT system. We reviewed CDSS' reconciliation procedures of the State
       Certification System Data to the EBT Processor Data, and to the Automated
       Standard Application for Payment. We also reviewed the stale and expunged
       benefits records.

       At the Los Angeles and Alameda county offices, we identified, tested, and
       assessed internal controls. Specifically, we reviewed procedures authorizing and
       restricting access to the EBT. We assessed the adequacy of the manual transaction
       processing procedures. We reviewed the reconciliation procedures of EBT system
       authorizations to the certification system to ensure information reported to and by
       CDSS agreed with data in the processor's EBT system and the Account
       Management Agent system. We assessed control over and use of EBT
       management reports and we reviewed security controls relating to the issuance of
       EBT cards. We also examined the process to investigate out-of-State EBT
       transactions.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

CONCLUSION AND REQUIRED AGENCY ACTION

Except for the minor separation of duties vulnerability discussed above that the county
offices agreed to address, nothing came to our attention to indicate that CDSS' oversight
and control over the electronic transfer of SNAP benefits in California was not adequate.
Allen Ng

Accordingly, this report presents no findings or recommendations, and no further action
is required by your office.

We appreciate the courtesies and cooperation extended to us by members of your staff
during our review.
Exhibit A - sits visiten
                                                               Exhibit A - Page 1 of 1




  FNS Los Angeles Field Office




COUNTY OFFICES:
  Alameda County Social Services Agency
  County of Los Angeles Department of Public Social Services
     South Family District (#3 1)
Informational copies of this report have been distributed to:

Agency Liaison Officer                             (3)
Government Accountability Office                   (1)
Office of Management and Budget                     (1)
Office of the Chief Financial Officer
  Director, Planning and Accountability Division   (1)
